No.

IN THE SUPREME COURT OF THE UNITED STATES

SARAH MELISA COX, Petitioner
vs.
UNITED STATES OF AMERICA, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

DAVID EISENBERG
Counsel of Record
3550 N. Central Avenue, Suite 1155
Phoenix, Arizona 85012
(602) 237-5076 voice
(602) 314-6273 facsimile
david@deisenbergplc.com
Attorney for Petitioner Cox

Date Sent by Federal Express Priority: December 15, 2020

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Sarah Cox, through undersigned counsel, respectfully
moves this Court to grant her permission to proceed in forma pauperis in
respect to her Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit filed herewith. Ms. Cox has no assets that
would enable her to hire counsel to represent her in connection with the
Petition or to file the Petition in this Court. Undersigned counsel’s office
was appointed to represent Ms. Cox under the Criminal Justice Act of
1964, 18 U.S.C. § 3006A, and this office continues to represent Ms. Cox
pursuant to that appointment.
For the above stated reasons, Ms. Cox respectfully requests that this
Court grant her leave to proceed in forma pauperis before this Court.
Respectfully submitted,
/s/David Eisenberg
DAVID EISENBERG
Counsel of Record
3550 N. Central Avenue, Suite 1155
Phoenix, Arizona 85012
(602) 237-5076 voice
Attorney for Petitioner Cox
December 15, 2020

